           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       USING MEDICARE CLAIM
          DATA TO IDENTIFY
      DECEASED BENEFICIARIES


     August 2012   A-08-09-19105




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 SOCIAL SECURITY
MEMORANDUM

Date:      August 2, 2012                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Using Medicare Claim Data to Identify Deceased Beneficiaries (A-08-09-19105)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) could
           use enhanced Medicare claim data to better identify deceased beneficiaries.

           BACKGROUND
           In 2001, SSA implemented a Medicare Non-Usage Project (MNUP) by matching data
           from all 20 segments of the Master Beneficiary Record (MBR) 1 with data from the
           Centers for Medicare and Medicaid Services (CMS) to determine whether Title II 2
           beneficiaries age 96 or older had used Medicare during the previous 3 years. When
           CMS reported no activity, SSA concluded the beneficiaries were likely deceased.
           However, SSA determined that only 5 percent of the targeted beneficiaries was
           deceased or could not be located. 3 The data match did not successfully screen out
           many of the remaining beneficiaries who were alive. SSA subsequently suspended
           MNUP because of limited resources.

           CMS enhanced its databases after the initial MNUP review to include more information
           about beneficiaries who are living in nursing homes, are in health maintenance
           organizations (HMO), or have private health insurance. The purpose of our review was
           to determine whether this additional information will allow SSA to screen out a larger
           percentage of beneficiaries who are alive and better identify deceased beneficiaries
           using less time and fewer resources.



           1
               The MBR is an electronic file that contains personally identifiable information for all Title II beneficiaries.
           2
            SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the Social
           Security Act. This program provides monthly benefits to retired and disabled workers, including their
           dependents and survivors. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
               SSA identified about $25.5 million in erroneous payments.
Page 2 - The Commissioner


Although SSA suspended MNUP, it implemented the Centenarian Project to ensure it
pays benefits to eligible living centenarians. In Fiscal Year (FY) 2011, SSA completed
over 9,000 interviews and detected over $8.7 million in overpayments due to unreported
deaths. In this review, SSA conducted face-to-face interviews with individuals
age 102 and older. In its FY 2012 review, SSA plans to include all beneficiaries
age 100 and older, but will only conduct face-to-face interviews if it cannot establish the
beneficiary’s identity during a telephone interview. To establish an individual’s identity,
SSA will request beneficiaries to provide specific personally identifiable information.

To accomplish our objective, we obtained, from 2 of the 20 segments of SSA’s MBR, a
data extract of 177,176 individuals age 90 or over (as of February 1, 2011) with a
residential address in the United States, enrolled in Medicare, and in current payment
status. After matching SSA and CMS data files, we reduced this population to
1,192 beneficiaries who did not use Medicare from 2007 through 2009. We further
refined this population to 485 beneficiaries with residential addresses in a postal zone
within 60 miles of an Office of Audit (OA) field office. 4 From this population, we
randomly selected and attempted to contact 125 beneficiaries to determine whether
they were alive and entitled to benefits. See Appendix B for additional information
regarding our scope and methodology.

RESULTS OF REVIEW
Based on the results of our review, we believe SSA can use enhanced Medicare claim
data to better identify deceased beneficiaries. Because such data include additional
information on beneficiaries who are alive and living in nursing homes, are enrolled in
HMOs, or have private health insurance, we believe SSA can screen out a large
percentage of beneficiaries and better identify deceased beneficiaries using less time
and fewer resources. For example, SSA either terminated or suspended the benefits of
44 5 (35 percent) of our 125 sample beneficiaries, which is significantly higher than the
5 percent SSA found in its 2002 MNUP project. The following table summarizes our
results as of July 2012.




4
  OA field office locations are Atlanta, Georgia; Baltimore, Maryland; Birmingham, Alabama; Boston,
Massachusetts; Chicago, Illinois; Dallas, Texas; Denver, Colorado; Falls Church, Virginia; Kansas City,
Missouri; New York, New York; Philadelphia, Pennsylvania; and Richmond, California. We also included
beneficiaries with addresses in selected postal codes in Southern California and South Florida. We
selected beneficiaries with addresses near OA field offices to enhance our ability to conduct timely
interviews. We had no reason to believe these beneficiaries were more or less likely to be deceased.
5
 This excludes beneficiaries who were purportedly out of the country, and SSA terminated them for death
during our fieldwork.
Page 3 - The Commissioner

                          Status of Beneficiaries                             Number of Beneficiaries
       Alive                                                                            52
       Deceased
                             6
         Benefits Terminated                                                               23
         Benefits Suspended (Probable Death)                                                6
       Purportedly Out of the Country
         Benefits Suspended                                                                10
         Benefits Updated with Foreign Address                                             13
         Benefits Terminated for Death                                                      3
         Current Payment Status                                                             4
       Whereabouts Unknown
         Benefits Suspended                                                                5
       Died During Fieldwork                                                               9
                                   Total                                                 125

Based on our findings, we estimate that SSA overpaid 890 deceased beneficiaries
about $99 million. 7 Further, we estimate that over the next 12 months, SSA will pay
about $9 million in additional overpayments to these deceased beneficiaries. In
addition, we estimate that about 1,160 beneficiaries were living outside the United
States and did not report their address change to SSA and about 190 beneficiaries’
whereabouts were unknown. These are conservative estimates because they exclude
beneficiaries who did not live near an OA field office. 8 Furthermore, we believe it is
likely that many of the beneficiaries with suspended benefits are deceased. We
reached this conclusion because they did not contact SSA to reinstate their benefits.

We believe SSA has opportunities to better identify deceased beneficiaries. Based on
the significant increase in the percentage of beneficiaries whose benefits SSA either
terminated or suspended, we believe it would be cost-effective for SSA to conduct
Medicare non-usage reviews to better identify deceased beneficiaries. According to
SSA, it is negotiating a Computer Matching and Privacy Protection Act agreement with
CMS to obtain Medicare non-use information for Title II beneficiaries age 90 and older.
In addition, given that seven beneficiaries died overseas and about one in every four
was purportedly living outside the United States, we believe SSA should continue
expanding the use of electronic death exchange information with foreign governments
willing to share such information. We also believe SSA should continue working with
the banking industry (as allowed under law) to find inactive accounts of deceased
beneficiaries.


6
 While deaths have been confirmed for all 23 beneficiaries, benefits for 2 of these individuals will not be
officially terminated until SSA receives their death certificates from the respective vital statistics offices.
7
  The MBR is divided into 20 segments, with each segment representing 5 percent of all records. We
identified a population of 23 deceased beneficiaries with about $2.6 million in payments after death from
2 segments of the MBR. For the 2 segments under review, we estimate approximately 89 beneficiaries
had about $9.9 million in payments after death (see Table C-2 in Appendix C). As a result, we estimate
that approximately 890 beneficiaries (89 x 10) had approximately $99 million in payments after death
($9,899,280 x 10) for the entire MBR.
8
    See Appendix C for a detailed explanation of our sampling methodology.
Page 4 - The Commissioner


DECEASED BENEFICIARIES

We determined that 23 (18 percent) of our 125 sample beneficiaries were deceased,
and SSA was generally unaware of these deaths. 9 Based on our findings, we estimate
that SSA overpaid 890 deceased beneficiaries about $99 million. 10 Further, we
estimate that over the next 12 months, SSA will pay deceased beneficiaries about
$9 million in additional overpayments. We believe these are conservative estimates
because they exclude beneficiaries who did not live near an OA field office.

As of July 2012, SSA had terminated the benefits of 21 of the 23 deceased
beneficiaries. 11 The dates of death ranged from 1982 to 2011, and these beneficiaries
had been deceased an average 12 years.

SSA suspended the benefits of six additional beneficiaries because it was likely they
were deceased (based on information we obtained from a relative, neighbor, or bank).
For example, one beneficiary’s neighbor told us the beneficiary died a few years ago,
and SSA suspended the benefits. SSA suspended payments to these six beneficiaries
between September 2011 and May 2012. As of July 2012, these beneficiaries had not
attempted to reinstate their benefits. Although we believe these beneficiaries are
deceased, they may remain in suspense for 7 years because SSA policy requires that
death be verified before it will terminate benefits. 12 The following examples illustrate
overpayments made to deceased beneficiaries.

•     One beneficiary had been deceased for 29 years and was overpaid $307,900.
      Office of Investigations (OI) is presenting this case for criminal prosecution. 13

•     One beneficiary had been deceased for 19 years and was overpaid $223,900. OI is
      presenting this case for criminal prosecution.

•     One beneficiary had been deceased for 21 years and was overpaid $212,400. OI is
      investigating.




9
 We identified two beneficiaries who had a date of death on their own MBR, but they were still receiving
benefits under their spouse’s record.
10
     As of July 2012, SSA had recovered $442,111 of the benefits paid after death.
11
  While deaths have been confirmed for all 23 beneficiaries, benefits for 2 of these individuals will not be
officially terminated until SSA receives their death certificates from the respective vital statistics offices.
12
     SSA, POMS, GN 02602.320F (May 3, 2006) and GN 02602.071C (September 21, 2011).
13
  This beneficiary was also included in SSA’s Centenarian Project. We attempted to contact the
beneficiary around the same time SSA determined the beneficiary’s death.
Page 5 - The Commissioner


•     One beneficiary had been deceased for 18 years and was overpaid $195,800. OI is
      investigating.

•     One beneficiary had been deceased for 9 years and was overpaid $69,000. After
      receiving our request to interview the beneficiary, an individual who had been
      receiving the beneficiary’s benefits via direct deposit contacted an attorney and
      provided a check for the full amount of the overpayment.

BENEFICIARIES PURPORTEDLY LIVING OUTSIDE THE UNITED STATES

SSA instructs beneficiaries to report any address change even if the Agency sends
payments to a bank or other financial institution. 14 In addition, SSA policy states that a
beneficiary who has lived abroad for longer than 3 months may not use a U.S. mailing
address. 15 However, we determined that 30 (24 percent) of the 125 sample
beneficiaries were purportedly living outside the United States and did not report their
address change to SSA. Based on our findings, we estimate that about
1,160 beneficiaries were living outside the United States. This is a conservative
estimate because it excludes beneficiaries who did not live near an OA field office.

SSA suspended benefits for 26 of these 30 beneficiaries. As of July 2012, 10 of these
beneficiaries remained in suspended payment status. We believe it is likely that some
of these beneficiaries were deceased because they did not contact SSA to reinstate
their benefits. For example, SSA suspended payments to one beneficiary in
November 2011 and suspended payments to seven beneficiaries in February 2012. To
date, the beneficiaries have not attempted to reinstate their benefits.

Although SSA had initially suspended the benefits of 16 additional beneficiaries, it
updated the MBR to reflect a foreign address for 13 beneficiaries and placed these
beneficiaries back in current payment status. SSA placed the remaining three
beneficiaries back in current payment status but did not update their addresses to show
they were living outside the United States. SSA did not suspend the benefits for one
additional beneficiary living in Italy because their representative payee lived in the
United States. Because SSA did not conduct face-to-face interviews with these
beneficiaries, we had no assurance they were alive.

SSA also terminated benefits for three beneficiaries who died while purportedly living in
Guatemala, Mexico, and Thailand, respectively. 16




14
     SSA, Publication No. 05-10137, June 2011.
15
     SSA, POMS, GN 02401.080B (April 20, 2004).
16
  We did not include these beneficiaries in the deceased category because we referred them to SSA as
purportedly living outside the United States. SSA subsequently terminated the beneficiaries’ benefits for
death, with no resulting overpayments.
Page 6 - The Commissioner


The following examples illustrate beneficiaries purportedly living outside the United
States.

•    One beneficiary’s son told us the beneficiary had lived in Israel for the last 8 to
     10 years. The beneficiary had traveled to and from Israel but fell and could no
     longer travel. SSA suspended the beneficiary’s benefits in February 2012. We
     believe this beneficiary may be deceased because she has not attempted to
     reinstate her benefits.

•    One beneficiary’s daughter told us the beneficiary lived in Barbados. SSA
     suspended the beneficiary’s benefits in February 2012. We believe this beneficiary
     may be deceased because he has not attempted to reinstate his benefits.

•    One beneficiary purportedly moved back to Mexico “years ago.” SSA suspended
     the beneficiary’s benefits in November 2011. We believe this beneficiary may be
     deceased because she has not attempted to reinstate her benefits.

Although beneficiaries may be alive and living outside the United States, SSA is at risk
of paying benefits to non-citizens who do not meet residency requirements. According
to the Social Security Act, unless a beneficiary meets one of a number of exceptions,
SSA cannot pay benefits to aliens who reside outside the United States for 6 full
calendar months. After the beneficiary is absent for 6 months and SSA suspends
payments, the beneficiary cannot resume benefits until they have been back in the
United States for 1 full calendar month. 17 As such, we believe SSA should review all
non-citizen beneficiaries in our sample who are living outside the United States to
determine whether they meet alien non-payment provisions.

BENEFICIARIES WHOSE WHEREABOUTS ARE UNKNOWN

Despite numerous attempts to determine whether our 125 sample beneficiaries were
alive, we could not determine the whereabouts of 5 (4 percent). Based on our findings,
we estimate that about 190 beneficiaries’ whereabouts were unknown. This is a
conservative estimate because it excludes beneficiaries who did not live near an OA
office. SSA suspended the benefits for these five beneficiaries in February 2012. We
believe there is a high probability that some of these beneficiaries are deceased
because they did not contact SSA to reinstate their benefits. OI is reviewing all five of
these cases.

OPPORTUNITIES FOR SSA TO BETTER IDENTIFY DECEASED BENEFICIARIES

SSA has opportunities to better identify deceased beneficiaries and reduce
overpayments. We believe SSA can use CMS’ enhanced databases to screen out a
large percentage of beneficiaries and identify deceased beneficiaries using less time
and fewer resources. Given the significant percentage of beneficiaries whose benefits
17
 Social Security Act § 202(t), 42 U.S.C. § 402(t), SSA, POMS, RS 02610.001A (February 2, 2012), and
SSA, POMS, RS 02610.010A (March 27, 2012).
Page 7 - The Commissioner


SSA either terminated or suspended from our review, we believe it would be
cost-effective for SSA to conduct Medicare non-use reviews to identify deceased
beneficiaries. According to SSA, it is negotiating a Computer Matching and Privacy
Protection Act agreement with CMS to obtain Medicare non-utilization information for
Title II beneficiaries age 90 and older. We believe SSA should continue working with
CMS to establish a data use agreement to identify aged beneficiaries who have not
used Medicare for several years.

Given that about one in every four sample beneficiaries was purportedly living outside
the United States (and seven beneficiaries died overseas), we believe SSA should
continue expanding the use of electronic death exchange information with foreign
governments willing to share such information. We acknowledge that SSA exchanged
death information with selected countries and planned to expand such exchanges to all
24 totalization agreement partners 18 over a 3-year period. However, SSA did not have
a death exchange agreement with six foreign countries where we identified deceased
beneficiaries. 19 Further, SSA did not exchange death information with eight countries20
where SSA suspended benefits for nine beneficiaries in our sample, some of whom
SSA may eventually terminate for death.

We also believe SSA should continue working with the banking industry (as allowed
under law) to find inactive accounts of deceased beneficiaries. We identified several
instances where banks were maintaining accounts that had been inactive for many
years, with the exception of direct deposits of SSA benefit payments. In a February
2004 report, we determined that SSA had deposited over $1 million into dormant bank
accounts of 15 deceased beneficiaries. Based on our recommendation, SSA agreed to
initiate Treasury reclamations to retrieve SSA funds held in these dormant accounts. 21
The following examples illustrate payments made to bank accounts of deceased
beneficiaries.

•    One beneficiary had been deceased for 26 years, and SSA had deposited over
     $163,000 into her account.

•    One beneficiary had been deceased for over 12 years, and SSA had deposited over
     $122,000 into his account.
18
   Totalization agreements are between the United States and certain foreign countries to eliminate dual
Social Security taxation that occurs when a worker from one country works in another country and is
required to pay Social Security taxes to both countries on the same earnings. These agreements also
allow workers who have divided their careers between the United States and another country to combine
work credits for both countries to become eligible for benefits.
19
  We identified deceased beneficiaries in Colombia, Dominican Republic, Haiti, Ireland, Mexico, and the
Philippines.
20
 SSA does not exchange death information with Barbados, China, England, Greece, Israel, Jamaica,
Mexico, and the Philippines.
21
  SSA OIG, Social Security Funds Held in Dormant Bank Accounts (A-02-03-23080), February 2004,
pages 3, 5, and 6.
Page 8 - The Commissioner


•     One beneficiary had been deceased for 11 years, and SSA had deposited over
      $62,000 into her account.

While we recognize that financial institutions have no incentive to report inactive
accounts, we believe SSA has a stewardship responsibility to ensure it properly pays
beneficiaries, thus avoiding overpayments. In fact, Executive Order 13520, Reducing
Improper Payments and Eliminating Waste in Federal Programs, November 2009, 22
states that agencies “. . . must make every effort to confirm that the right recipient is
receiving the right payment for the right reason at the right time.” In keeping with the
intent and spirit of this Order, we encourage SSA to be proactive in working with the
banking community to identify inactive bank accounts of deceased beneficiaries.

CONCLUSION AND RECOMMENDATIONS
We commend SSA for its efforts to identify deceased beneficiaries, including the
Centenarian Project. However, based on the results of this audit, we estimate that
hundreds of aged beneficiaries were deceased, some were purportedly living outside
the United States, and we could not locate others. When the Agency does not receive
timely death reports, overpayments occur. As such, we believe SSA would benefit by
taking additional steps to better identify deceased beneficiaries.

Accordingly, we recommend that SSA:

1. Continue working with CMS to establish a data use agreement to identify aged
   beneficiaries who are not using Medicare and use this information to conduct MNUP
   reviews.

2. Work the remaining 1,067 cases in our universe (who are in current payment status
   and not part of the Centenarian Project) to determine whether these beneficiaries
   are alive. We will provide these cases under separate cover.

3. Review all non-citizen beneficiaries in our sample who are alive and living outside
   the United States to determine whether they meet alien nonpayment provisions. We
   will provide these cases under separate cover.

4. Continue expanding the use of electronic death exchange information with foreign
   governments who are willing to share such information to ensure the Agency does
   not continue to pay beneficiaries who die while living outside the United States.

5. Continue working with the banking industry (as allowed under law) to find inactive
   bank accounts of deceased beneficiaries, thus avoiding overpayments.




22
     Presidential Documents, 74 Fed. Reg. 62201 (Nov. 25, 2009).
Page 9 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.

OTHER MATTERS
While refining our population, we identified 32 beneficiaries who (1) were in SSA’s
records but not in the data files CMS provided or (2) had a date of death on the
Numident but were in current payment status. The following table summarizes our
results.

                        Status of Beneficiaries                       Number of Beneficiaries
     Alive                                                                      16
     Deceased                                                                   15
     Purportedly Out of the Country
       Suspended                                                                 1
                                 Total                                          32

We determined that 15 (47 percent) of the 32 beneficiaries were deceased. Twelve of
these 15 beneficiaries had a date of death on the Numident but remained in current
payment status. One beneficiary had a date of death on her MBR but continued
receiving benefits under her spouse’s record. We determined the two remaining
beneficiaries were deceased based on a nursing home report and a family member.
The dates of death ranged from 1997 to 2008, and these beneficiaries had been
deceased an average 7 years. SSA overpaid these 15 beneficiaries over $1 million
since their deaths.

Prior OIG reports also identified problems with beneficiaries who had a date of death on
the Numident, but SSA had not terminated their benefits. 23 Because this is an ongoing
issue, we encourage SSA to determine the living status of all beneficiaries with a date of
death on the Numident and terminate benefits where appropriate.




                                          Patrick P. O’Carroll, Jr.




23
  SSA OIG, Title II Beneficiaries Whose Benefits Have Been Suspended and Who Have a Date of Death
on the Numident (A-09-10-10117), April 2011, page 2 and SSA OIG, Payments to Individuals Whose
Numident Record Contains a Death Entry (A-06-08-18095), June 2009, page 2.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CMS         Centers for Medicare and Medicaid Services
Fed. Reg.   Federal Register
FY          Fiscal Year
HMO         Health Maintenance Organization
MBR         Master Beneficiary Record
MNUP        Medicare Non-Usage Project
OA          Office of Audit
OI          Office of Investigations
OIG         Office of the Inspector General
POMS        Program Operations Manual System
SSA         Social Security Administration
U.S.C.      United States Code
                                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures, applicable laws, and regulations.

•   Obtained a data extract from 2 of the 20 segments of SSA’s Master Beneficiary
    Record (MBR). This file comprised 177,176 beneficiaries age 90 and older (as of
    February 1, 2011) with a residential address in the United States, enrolled in
    Medicare, and in current payment status.

•   Obtained usage files from the Centers for Medicare and Medicaid Services (CMS)
    for 2007 through 2009.

•   Matched SSA and CMS data files and reduced our population to 1,225 beneficiaries
    who did not use Medicare in 2007, 2008, or 2009. We excluded beneficiaries who
    had accruals for medical services, such as inpatient, outpatient, skilled nursing
    facility, durable medical equipment, or home health visit claims. We also excluded
    beneficiaries who had health maintenance organization coverage, had other
    insurance, or were deceased. 1

•   Refined the population of 1,225 beneficiaries by excluding those beneficiaries who
    were no longer in current payment status or appeared in SSA’s records but not in
    the files CMS provided. 2 These exclusions reduced our population to 1,192
    beneficiaries. We then refined the population by excluding beneficiaries who did not
    live in a postal zone within 60 miles of an Office of Audit (OA) field office or in select
    postal codes in South Florida or Southern California. 3 The result was
    485 beneficiaries who met our criteria.

•   Selected a random sample of 125 beneficiaries.




1
 We reviewed the MBR for beneficiaries who had benefits terminated due to death. We also examined
each beneficiary’s Numident to determine whether a death was posted, and the beneficiary remained in
current payment status. We referred these “Numident” deaths to our Office of Investigations for review.
2
  We placed these beneficiaries in a separate population to determine why they did not appear in CMS’
files.
3
  We selected beneficiaries with addresses near OA field offices to enhance our ability to conduct timely
interviews. We had no reason to believe these beneficiaries were more or less likely to be deceased.


                                                   B-1
•   Obtained addresses and telephone numbers from the MBR and mailed letters to our
    sample beneficiaries. If we could not contact the beneficiary, we attempted to
    contact relatives and neighbors to determine the beneficiary’s whereabouts. We
    also contacted banks to determine whether beneficiary accounts were active.

•   Queried the Department of the Treasury’s Check Information System to identify
    consistencies in signatures and to ensure that beneficiaries receiving their benefits
    via check were cashing the checks.

•   Used online death searches to look for unreported beneficiary deaths.

•   Conducted face-to-face interviews with beneficiaries at either their residence or a
    local Social Security field office. Although we did not conduct face-to-face interviews
    with five beneficiaries who were living in a CMS-approved nursing home, we
    confirmed that the beneficiaries were alive with nursing home personnel. Neither we
    nor SSA conducted face-to-face interviews with 30 beneficiaries who were
    purportedly alive and living outside the United States. As such, we had no
    assurance they were alive.

•   Referred potentially deceased cases where fraud appeared to be involved or where
    the beneficiaries’ whereabouts were unknown to our Office of Investigations. We
    referred beneficiaries who were purportedly living outside the United States or were
    deceased (but had no apparent fraud involved) to SSA.

•   Determined the amount of overpayments for the deceased beneficiaries and
    calculated payments that SSA would continue to pay these beneficiaries for
    12 months.

Our review of internal controls was limited to gaining an understanding of information
contained on the MBR and Numident. We performed our audit at the OA field office in
Birmingham, Alabama, and other OA locations nationwide. We determined the
computer-processed data were sufficiently reliable for our intended use. We conducted
tests to determine the completeness and accuracy of the data. These tests allowed us
to assess the reliability of the data and achieve our audit objectives.

The SSA entity audited was the Office of Public Services and Operations Support under
the Office of the Deputy Commissioner for Operations. We conducted this audit from
July 2011 through July 2012 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




                                            B-2
                                                                        Appendix C

Sampling Methodology and Results
We obtained a data extract from 2 of the 20 segments of the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR). We identified
1,192 beneficiaries age 90 or older (as of February 1, 2011) with a residential address
in the United States, enrolled in Medicare, and in current payment status. These
beneficiaries had no Medicare-related activity for 2007 through 2009. Based on the
data extract, we identified a population of 485 beneficiaries with an address in a postal
zone within 60 miles of an Office of Audit (OA) field office, or in select postal zones in
South Florida and Southern California. We randomly selected 125 beneficiaries from
this population to determine whether they were alive or deceased.

Deceased Beneficiaries

Based on a random sample of 125 beneficiaries, we determined that 23 (18 percent)
beneficiaries were deceased and overpaid $2,551,361. Projecting these results to our
population of 485 beneficiaries and all segments of the MBR, we estimate that SSA
overpaid 890 deceased beneficiaries in the remaining segments of the MBR about
$99 million in payments after death. Over the next 12 months, SSA will pay these
23 deceased beneficiaries $235,596. Projecting these results to our population of
485 beneficiaries and all segments of the MBR, we estimate that over the next
12 months, SSA will issue about $9 million in additional overpayments. These are
conservative estimates because they exclude the estimated 7,000 beneficiaries who did
not live near an OA field office, in South Florida, or in Southern California.

Beneficiaries Purportedly Living Outside the United States

Based on a random sample of 125 beneficiaries, we determined that 30 (24 percent)
beneficiaries were purportedly living outside the United States and did not report their
address change to SSA. Projecting these results to our population of 485 beneficiaries
and all segments of the MBR, we estimate that about 1,160 beneficiaries are
purportedly living outside the United States.

Beneficiaries Whose Whereabouts are Unknown

Based on a random sample of 125 beneficiaries, we determined that 5 (4 percent)
beneficiaries’ whereabouts are unknown. Projecting these results to our population of
485 beneficiaries and all segments of the MBR, we estimate that about
190 beneficiaries’ whereabouts are unknown. The following tables provide the details of
our sample results and statistical projections.




                                            C-1
Table C-1 – Population and Sample Size

              Description                                        Number of Beneficiaries
Population Size                                                           485
Sample Size                                                               125

Table C-2 – Deceased Beneficiaries

       Description                   Number of Beneficiaries                     Overpayments
Sample Results                                 23                                  $2,551,361
Point Estimate                                 89                                  $9,899,280
Projection – Lower Limit                       66                                  $6,522,250
Projection – Upper Limit                      117                                 $13,276,311
Estimate to Entire MBR                        890                                 $98,992,800
Note: All statistical projections are at the 90-percent confidence level.

Table C-3 – Overpayments to Deceased Beneficiaries over the Next 12 Months

       Description                   Number of Beneficiaries                 Future Overpayments
Sample Results                                 23                                   $235,596
Point Estimate                                 89                                   $914,112
Projection – Lower Limit                       66                                   $642,473
Projection – Upper Limit                      117                                 $1,185,752
Estimate to Entire MBR                        890                                 $9,141,120
Note: All statistical projections are at the 90-percent confidence level.

Table C-4 – Beneficiaries Purportedly Living Outside the United States

                           Description                                      Number of Beneficiaries
 Sample Results                                                                        30
 Point Estimate                                                                       116
 Projection – Lower Limit                                                              91
 Projection – Upper Limit                                                             146
 Estimate to Entire MBR                                                             1,160
Note: All statistical projections are at the 90-percent confidence level.

Table C-5 – Beneficiaries Whose Whereabouts are Unknown

                      Description                                           Number of Beneficiaries
 Sample Results                                                                        5
 Point Estimate                                                                       19
 Projection – Lower Limit                                                              9
 Projection – Upper Limit                                                             37
 Estimate to Entire MBR                                                              190
Note: All statistical projections are at the 90-percent confidence level.




                                                    C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      July 19. 2012                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Using Medicare Claim Data to Identify Deceased
           Beneficiaries" (A-08-09-19105)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “USING MEDICARE CLAIM DATA TO IDENTIFY DECEASED
BENEFICIARIES” (A-08-09-19105)


Recommendation 1

Continue working with the Centers for Medicare and Medicaid Services (CMS) to establish a
data use agreement to identify aged beneficiaries who are not using Medicare and use this
information to conduct Medicare Non-Usage Project reviews.

Response

We agree.

Recommendation 2

Work the remaining 1,067 cases in our universe (who are in current payment status and not part
of the Centenarian Project) to determine whether these beneficiaries are alive.

Response

We agree. We will include the 1,067 cases in our data exchange with CMS. We will assess
these cases under our 2013 Medicare Non-Usage Project.

Recommendation 3

Review all non-citizen beneficiaries in our sample who are alive and living outside the United
States to determine whether they meet alien nonpayment provisions. We will provide these
cases under separate cover.

Response

We agree.

Recommendation 4

Continue expanding the use of electronic death exchange information with foreign governments
who are willing to share such information to ensure the agency does not continue to pay
beneficiaries who die while living outside the United States.

Response

We agree.




                                               D-2
Recommendation 5

Continue working with the banking industry (as allowed under law) to find inactive bank
accounts of deceased beneficiaries, thus avoiding overpayments.

Response

We agree.




                                             D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Jeff Pounds, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Janet Matlock, Senior Auditor

   Ken Coward, IT Specialist

   Kathy Yawn, Senior Auditor

   Jordan Sherman, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-08-09-19105.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
